             U.S.AGENCY FOR
              INTERNATIONAL
              DEVELOPMENT

             RIG/San Salvador


             July 15, 2002

             MEMORANDUM

             FOR:               USAID/Haiti Director, David Adams

             FROM:              Acting RIG/San Salvador, Steven H. Bernstein “/s/”

             SUBJECT:           Risk Assessment of Major Functions Within USAID/Haiti
                                (Report No. 1-521-02-001-S)

             This memorandum is our report on the subject risk assessment. This is not an
             audit report, and there are no recommendations for your action. Your comments
             were considered in finalizing the report and are included in their entirety as
             Appendix II.

             I appreciate the cooperation and courtesy extended to my staff during the risk
             assessment.



Background   In fiscal year 2002, USAID/Haiti began the fourth year of its six-year strategic
             plan. When the plan was implemented, the mission budgeted for a funding
             level of $70 million per year to meet its assistance goals. However, the
             program has not received the expected funding levels. USAID/Haiti’s general
             goal areas and their planned fiscal year 2002 and 2003 funding levels, in
             millions, are presented in the following table:

                                                                  FY 2002        FY 2003
              Sustained Increased Income for the Poor               $ 7.1          $ 6.5
              Healthier Families of Desired Size                     17.9           14.0
              Increased Human Capacity                                2.5            2.5
              Inclusive Democratic Governance Attained                2.5            2.0

                                                                     $30.0           $25.0
In addition to the program functions detailed above, the mission planned to
receive $20 million in P.L. 480 Title II commodities in fiscal year 2003.

The General Accounting Office (GAO) noted in “Standards for Internal Control
in the Federal Government” (November 1999) that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against loss.
Internal controls consist of the following five interrelated components. These
components are the minimum level for internal control and provide the basis
against which internal control is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive attitude
   toward internal control and conscientious management.

2. Internal control should provide for an assessment of the risks the agency faces
   from both external and internal sources.

3. Internal control activities should be effective and efficient in accomplishing
   the agency’s control objectives and help ensure that management’s directives
   are carried out.

4. Information should be recorded and communicated to management and others
   within the agency who need it and in a form and within a time frame that
   enables them to carry out their internal control and other responsibilities.

5. Internal control monitoring should assess the quality of performance over time
   and ensure that the findings of audits and other reviews are promptly resolved.

This review focused on the second component—risk assessment. The GAO
Standards note that the specific risk analysis methodology used can vary because
of differences in agencies’ missions and the difficulty in qualitatively and
quantitatively assigning risk levels.




                                                                                    2
Discussion   USAID/Haiti manages activities in the following major areas. Our assessments of
             the risk exposure for each of these functions are described below.

                              Function Description                       Risk
                                                                       Exposure
              Population, Health, and Nutrition – focus on             Moderate
              population, child health/child survival, and
              infectious diseases
                                    Risk Assessment Factors

              •   Team leader has been with USAID for nearly 30 years.

              •   Team leader is requesting a second tour.

              •   Staff includes three doctors with several years of USAID
                  experience.

              •   Management has third party technical assistance available, if
                  desired.

              •   Implementers are audited periodically.

              •   USAID/Haiti Controller’s Office conducts payment verification
                  reviews on implementers periodically.

              •   Mission’s Federal Managers’ Financial Integrity Act (FMFIA)
                  review identified no material issues with this function.

              •   This is a large program for the mission with an expected fiscal
                  year 2002 budget of $17.9 million.

              •   HIV/AIDS activities are high profile.

              •   Financial, performance, and compliance monitoring activities
                  have been established.

              •   We judged the function to have a high level of inherent risk due
                  to the high dollar value of its program in comparison to overall
                  mission funding levels.




                                                                                          3
              Function Description                     Risk Exposure
Food for Peace – includes school feeding, food           Moderate
for work, and food for education
                       Risk Assessment Factors

•   Food for Peace officer has over five years experience.

•   Program has straightforward objectives and measurement criteria.

•   The program employs three full time monitors.

•   Management has third party technical assistance available.

•   Implementers are audited periodically.

•   USAID/Haiti Controller’s Office conducts payment verification
    reviews on implementers periodically.

•   Mission’s FMFIA review identified no material issues with this
    function.

•   The program is significant to the mission with a $20 million annual
    funding level.

•   The program was audited recently by USAID/Regional Inspector
    General. The one recommendation from the audit was accepted by
    the mission.

•   We judged the function to have a high level of inherent risk due to
    the high dollar value of its program in comparison to overall
    mission funding levels.




                                                                          4
               Function Description                      Risk
                                                       Exposure
Education – provides for teacher education,            Moderate
school supplies, and courses delivered by radio
                     Risk Assessment Factors

•   New Education Officer identified and expected at post early
    next year.

•   Program activities under development.

•   The level of support with the government of Haiti for the
    planned program activities is unclear.

•   Planned program activity to create a radio network and
    provide educational content could become sensitive if others
    view it as a propaganda vehicle.

•   Implementers are audited periodically.

•   USAID/Haiti Controller’s Office conducts payment
    verification reviews on implementers periodically.

•   Mission’s FMFIA review identified no material issues with
    this function.

•   Program is relatively small with $2.5 million in funding
    expected in fiscal year 2002.

•   Implementer has staff to monitor the program activities.

•   See Appendix II, pages 20 to 21, Specific Comment VII, for
    detailed mission comments regarding this function.




                                                                   5
                Function Description                       Risk
                                                         Exposure
Justice, Democracy, & Governance – focus on                High
assistance to political parties, civic education, and
coalition building
                       Risk Assessment Factors

•   Continuity of team leadership is uncertain.

•   The impact of program activities is uncertain due to the
    difficult political environment in Haiti.

•   USAID does not have a direct working relationship with the
    government of Haiti.

•   Financial structure of some grants under the program leaves
    USAID without significant input on activities.

•   Implementers are audited periodically.

•   USAID/Haiti Controller’s Office conducts payment
    verification reviews on implementers periodically.

•   Mission’s FMFIA review identified no material issues with
    this function.

•   Program is relatively small with $2.5 million in funding
    expected in fiscal year 2002.

•   See Appendix II, pages 19 to 20, Specific Comment V, for
    detailed mission comments regarding this function.




                                                                    6
               Function Description                        Risk
                                                         Exposure
Economic Growth – covers micro-finance,                    High
agriculture, investment climate, and environmental
activities
                     Risk Assessment Factors

•   New Economic Growth Office Chief identified and expected at
    post this year.

•   Implementers are audited periodically.

•   USAID/Haiti Controller’s Office conducts payment
    verification reviews on implementers periodically.

•   Mission’s FMFIA review identified one material issue with
    this function, which is being resolved.

•   The economic climate in Haiti is difficult. USAID/Haiti’s
    moderately sized program, $7.1 million budget in fiscal year
    2002, will be pressed to make a significant impact on Haiti’s
    overall economic condition.

•   See Appendix II, pages 21 to 22, Specific Comment VIII, for
    detailed mission comments regarding this function.




                                                                    7
                Function Description                         Risk
                                                           Exposure
Controller’s Office – responsible for accounting,          Moderate
voucher payment, and financial analysis
                    Risk Assessment Factors

•   The Controller is new to USAID.

•   Operations follow specific, well-defined procedures.

•   Duties are segregated.

•   The Mission Accounting and Control System (MACS) has
    inherent security limitations.

•   We judged the function to have a high level of inherent risk
    due to the high number of regulations that control operations,
    the high volume and high value of payments disbursed, and the
    difficult country environment.

•   See Appendix II, pages 17 to 18, Specific Comment III, for
    detailed mission comments regarding this function.




                                                                      8
                   Function Description                               Risk
                                                                    Exposure
 Contracting Office – provides contract                             Moderate
 negotiation, change order management, contract
 drafting, and contract management services
                      Risk Assessment Factors

 •   Regional Contracting Officer has over 15 years of experience
     with USAID.

 •   Contracting staff in Haiti has between 5 and 10 years
     experience.

 •   Contracting procedures regulated and defined.

 •   The automated contract preparation and management system,
     as mandated by USAID and utilized by the mission, is reported
     to be inefficient and inaccurate.1

 •   Contracting staff members participate on strategic objective
     teams.

 •   Mission’s FMFIA review identified no material issues with
     this function.




_____________________
1
  In its comments to the draft report (see Appendix II, Specific Comment II, page 17),
USAID/Haiti stated that updates and corrections are made to the system to resolve issues as
reported by users, and, in June 2002, USAID launched a solutions center to help with this process.



                                                                                                 9
                Function Description                         Risk
                                                           Exposure
Executive Office – provides general services to the          High
mission including information systems, personnel,
procurement, maintenance, motor pool, and property
management
                     Risk Assessment Factors

•   Continuity of office leadership is uncertain.

•   Operations follow specific, well-defined procedures.

•   Executive Officer reported that the warehouse facilities were
    inadequate for a period of time and contributed to an under-
    controlled inventory environment of warehoused goods.

•   We judged the function to have a high level of inherent risk due
    to the high number of regulations that control operations, the
    high volume of low dollar value purchases requested, and the
    difficult country environment.

•   The Information Systems Security Officer is a U.S. direct hire
    but does not have extensive information systems security
    experience.

•   See Appendix II, pages 18 to 19, Specific Comment IV, for
    detailed mission comments regarding this function.




                                                                       10
                Function Description                        Risk
                                                          Exposure
Program Office – coordinates budget and annual            Moderate
reporting, and prepares and implements the
monitoring of overall mission planning and
programmatic documents
                     Risk Assessment Factors

•   Current Program Officer duties are being performed by a
    strategic objective team leader in addition to that leader’s
    strategic objective responsibilities.

•   New Program Officer identified and expected at post this year.

•   Program Office duties highly decentralized with responsibility
    placed with strategic objective teams. However, according to
    mission management, Program Office functions will be re-
    examined upon the arrival of the new Program Officer.

•   Mission’s FMFIA review identified no material issues with
    this function.




                                                                     11
Conclusion   This review assigned a risk exposure judgement of high, moderate, or low for
             each major function. A higher risk exposure judgement implies that the program
             objectives for a particular function are more vulnerable to not being achieved or
             to experiencing irregularities. Appendix I describes in detail our risk
             assessment’s scope and methodology.

             In judging the risk exposure for the administrative and program functions in
             USAID/Haiti, we considered:

             •   the amount of funding the individual programs received relative to the overall
                 mission budget (see Background section for details of the mission’s $30
                 million fiscal year 2002 program budget),

             •   the level of U.S. political interest in the program activities,

             •   the level of involvement and/or support provided by the Government of Haiti,

             •   the experience of key staff members in their area of expertise as well as in
                 Haiti,

             •   recruiting and staffing challenges faced by the mission,

             •   incidences of improper administration or material weaknesses (if any) noted in
                 prior reviews and/or as reported by mission officials,

             •   management support for internal controls, and

             •   the level of risk inherently present in an activity that program or
                 administrative objectives will not be met.

             Our risk assessment of USAID/Haiti covered nine functions. We judged three
             functions to have a “high” risk exposure and six to have a “moderate” risk
             exposure as illustrated in the following table.




                                                                                                12
                                                Risk Exposure
           Function Description             High Moderate Low
Population, Health, and Nutrition –
focus on population, child health/child            9
survival, and infectious diseases
Food for Peace – includes school feeding,
food for work, and food for education              9
Education – provides for teacher
education, school supplies, and courses            9
delivered by radio
Justice, Democracy, & Governance –
focus on assistance to political parties,   9
civic education, and coalition building
Program Office – coordinates budget and
annual reporting, and prepares and                 9
implements the monitoring of overall
mission planning and programmatic
documents
Economic Growth – covers micro-
finance, agriculture, investment climate,   9
and environmental activities
Controller’s Office – responsible for
accounting, voucher payment, and                   9
financial analysis
Contracting Office – provides contract
negotiation, change order management,              9
contract drafting, and contract
management services
Executive Office – provides general
services to the mission including           9
information systems, personnel,
procurement, maintenance, motor pool,
and property management




                                                                13
                                                                                      Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/San Salvador conducted a risk assessment of
              major functions within USAID/Haiti. The risk assessment considered operations
              principally for fiscal year 2002. The risk assessment was conducted at
              USAID/Haiti from April 15, 2002 to April 19, 2002.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by USAID/Haiti. These documents covered background,
              organization, management, budget, staffing responsibilities, and prior reviews.
              Our review of USAID/Haiti documentation was isolated and judgmental in nature
              and was conducted principally to confirm oral attestations of management.

              We identified USAID/Haiti’s major functions based on input from the Mission
              Director, discussions with mission staff, and review of mission reports. We
              judged risk exposure (e.g., the likelihood of significant abuse, illegal acts, and/or
              misuse of resources, failure to achieve program objectives, and noncompliance
              with laws, regulations and management policies) for those major functions. We
              assessed overall risk exposure as high, moderate, or low. A higher risk exposure
              simply indicates that the particular function is more vulnerable to not achieving its
              program objectives or to experiencing irregularities. We considered the following
              key steps in assessing risk exposure:

              1. determined significance and sensitivity;

              2. evaluated susceptibility (inherent risk) of failure to attain program goals,
                 noncompliance with laws and regulations, inaccurate reporting, or illegal or
                 inappropriate use of assets or resources;

              3. were alert to "red flags” such as a history of improper administration or
                 material weaknesses identified in prior audits/internal control assessments,
                 poorly defined and documented internal control procedures, or high rate of
                 personnel turnover;

              4. considered management support and the control environment;

              5. considered competence and adequacy of number of personnel;

              6. identified and understood relevant internal controls, and

              7. determined what was already known about internal control effectiveness.




                                                                                                14
                                                                         Appendix I

These risk exposure assessments were not sufficient to make definitive
determinations of the effectiveness of internal controls for major functions. As
part of the scope of our review, we (a) identified, understood, and documented
(only as necessary) relevant internal controls and (b) determined what was already
known about the effectiveness of internal controls. However, we did not (a)
assess the adequacy of internal control design, (b) determine if controls were
properly implemented, nor (c) determine if transactions were properly
documented.

Our risk assessment of USAID/Haiti’s major functions has the following
limitations in their application.

•   First, we assessed risk exposure at the major function level only.

•   Second, we only assessed risk exposure. Our assessments were not sufficient
    to make definitive determinations of the effectiveness of internal controls for
    major functions. Consequently, we did not (a) assess the adequacy of internal
    control design, (b) determine if controls were properly implemented, nor (c)
    determine if transactions were properly documented.

•   Third, higher risk exposure assessments are not definitive indicators that
    program objectives were not being achieved or that irregularities were
    occurring. A higher risk exposure simply implies that the particular function
    is more vulnerable to such events.

•   Fourth, risk exposure assessments, in isolation, are not an indicator of
    management capability due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.

•   Fifth, comparison of risk exposure assessments between organizational units
    is of limited usefulness due to the fact that the assessments consider both
    internal and external factors, some being outside the span of control of
    management.




                                                                                 15
                                                                                   Appendix II


Management
Comments
             June 24, 2002
             David R. Adams, USAID\Haiti Mission Director
             Comments on the RIG Risk Assessment of Major Functions within USAID/Haiti
             Draft Report No. 1-521-02-XXX-S.
             Timothy E. Cox
             RIG/A/San-Salvador



             This memorandum constitutes USAID/Haiti response to the RIG Risk Assessment
             of Major Functions within USAID/Haiti Draft Report No. 1-521-02-XXX-S dated
             May 21, 2002 and contains our written comments on action planned or already taken
             to address and close the findings described in the Draft Report.

             General Comment:

             USAID/Haiti appreciates the time and effort that your staff, Christine Byrne and
             John Vernon, and you took to perform the assessment review, judging the risk
             exposure for the administrative and program functions of the USAID/Haiti
             operations. After completing its review of the Draft Report, the Mission has the
             following comments to make with regard to the substance contained therein. In
             general, we found the findings noted in the Draft Report to be both appropriate
             and actionable.

             Our response below should clarify that we are taking appropriate actions to
             resolve and close the findings that were uncovered during the review.

             Specific Comment I:

             -      Population, Health, and Nutrition- focus on population, child health/child
             survival, and infectious diseases.
             -      Food for Peace- includes school feeding, food for work and food for
             education

             • Even though assessed as “ Moderate “ Risk Exposure, RIG review did not
             identify any internal control structure weaknesses related to these two functional
             activities areas. These two technical offices will continue implementing internal
             controls which should provide reasonable assurance that objectives are being
             achieved, operations are effective and efficient, and assets are safeguarded against
             loss.



                                                                                              16
                                                                       Appendix II


Specific Comment II:

-     Contracting Office- provides contract negotiation, change                order
management, contract drafting, and contract management services.

• The Procurement Document System (ProDoc) is the contract preparation and
management software mandated by the Agency for all contracting actions. While
this system has some limitations and problems, updates and corrections are made to
the system to resolve some of them as they are being reported by the users. In order
to help the process, an Office of Procurement (M/OP) Solutions Center has been set
up for better use of the system. USAID/General Notice 0601 dated June 3, 2002
launched this solutions center to address some of the issues for all of the automated
procurement systems used by the agency.

Specific Comment III:

-      Controller’s Office- responsible for accounting, voucher payment, and
financial analysis.

• The current Deputy Controller has been promoted to Controller and her tour of
duty has been extended to one (1) more year to August 2003.

• Due to the inherent limitations, including security, of USAID Accounting and
Control system used in the field (MACS), the Agency has established an
Integrated Financial Management System called Phoenix that is supposed to be
fully compliant with the Federal Financial Managers Improvement Act. Phoenix,
which is supposed to be a revised version of Momentum, will be the Core
Financial Management System of USAID. Phoenix will have the capability to
interface with MACS, Payroll Processing, Procurement Management System,
Goals and Loans. Phoenix is currently implemented in USAID/Washington and is
supposed to be rolled out to the field in Fiscal year 2004.

• Regulations that control financial operations are strictly adhered to by the
Financial Management Office (FM). FM voucher examiners are fully trained with
an excellent understanding of USAID’s assistance instruments, the rules and
regulations surrounding each mode of assistance, and the basics for determining
allowability of cost taking into consideration the difficult country environment. A
procedural checklist and FM directives have been implemented for review and
processing of vouchers.

•      LAC/W is proposing a Regionalization plan to centralize USAID
accounting stations in the Caribbean and other parts of the LAC Region.
USAID/Haiti has expressed concern about the potential for Regionalization to
increase vulnerabilities in Haiti, if the Regionalization plan is adopted in the



                                                                                  17
                                                                     Appendix II

absence of a full and appropriate analysis of potential effects. LAC/W has
pledged to work closely with the Mission to do an assessment before
implementing the Regionalization plan for the Caribbean.


Specific Comment IV:

-      Executive Office- provides general services to the Mission including
information systems, personnel, procurement, maintenance, motor pool, and
property management.

• The Mission has advertised and conducted telephone interviews for the EXO
position that will be vacated in September 2002. The position was reclassified as a
USPSC position and the Mission is actively pursuing the recruitment process.

• Due to the periodical and sometimes extended absences of the Property
Supervisor and the need to replace both the EXP and NXP Clerks, the USAID
warehouse inventory has not always been well managed. Also, at the time of this
assessment, the mission was in the midst of relocating from one warehouse to
another. Therefore, things were not in order. The warehouse move has been
completed and we are now organizing an auction of excess material which was held
on June 15, 2002. No later than June 28, 2002, a complete inventory of the
warehouse will be conducted. O.E. funded items are stocked together. Project items
are/will be stocked per project. EXP, small items, is stored in a locked room with
key control, as are hospitality kit items and IMO property. The warehouse entrance
key is controlled for restricted entrance and the compound has 24-hour Embassy
Guard protection.

• High level risk is inherent in any EXO/GSO operation. The high number of
regulations and good management/supervision keeps the operation in check with a
minimal of disruptions and losses. USAID has not had any serious loss issues in the
past.

GSO Petty Cash fund/procedure: One employee is designated to disburse the
funds for GSO needs. A limited amount is set up before replenishing the funds
through the FM office. Actual/original quotes are presented to the GSS and/or the
Maintenance Supervisor to attach a Purchase Request. It is then sent to the
Executive Office to be approved by the A/EXO or the EXO. Once approved, the
Petty Cash Officer is permitted to disburse the funds to the authorized receiver.
The receiver must return with the original/actual purchase/delivered receipt for
the merchandise and present it to the petty cash officer. The signed/authorized
purchase requests and receipts are used in justifying the replenishing of the funds
back to the GSO petty cash. The EXO or A/EXO must approve the request for
replenishment before it goes to the FM office.




                                                                                18
                                                                      Appendix II

Local Purchases: Requests for purchasing are submitted by the office in need. The
Procurement Office then gets the number of quotes for the item to ensure
purchasing of best price and quality and presents this to the Executive Office for
approval/signature. The procurement office follows the same guidelines as the
petty cash officer in redeeming the purchase with proof of purchase by an original
receipt, using the Mission cashier.           Local purchases are used for
urgent/emergency purchases. As often as possible, we purchase in bulk from
offshore sources.

• The Information Systems Security Officer position is held by the Executive
Officer at Post. He has worked with AID/SEC on several occasions pertaining to
information systems security. When trouble was detected, quick action on the part
of the current EXO and working closely with SEC and IRM in AID/W prevented
any serious problems. Before any new user is allowed access to the system, the
“USAID Computer System Access & Termination Request” form is first
completed and signed. The Mission could seek the appropriate training for the
new EXO, should he or she not have extensive information systems security
experience.

Specific Comment V:

-       Justice, Democracy, and Governance- focus on assistance to political
parties, civic education, and coalition building.

• The continuity of team leadership is an issue as is the shortage of experienced
staff in the Office, which could leave us vulnerable. JDG consults frequently with
both the Contracting Office and FM to get their guidance on contracts and grants
management issues to mitigate the risk.

• The prior strategy and program description are no longer relevant for making
judgements about the current program in place. After the May 2000 elections, the
Mission adjusted the program substantially. We moved from an institutional
strengthening program with the Government of Haiti (GOH), aimed at
strengthening key democratic institutions, to one where we work exclusively with
civil society. Indicators and targets now reflect the new political environment.
Since then, we have met our objectives.

• We stopped working with the GOH when assumptions about the political will
for political system reform proved false. Still, we strongly encourage civil society
direct engagement with the GOH. Current policy restricts our direct engagement
with or support to the GOH, however.

• In this dynamic political environment, we need the flexibility that grants
instruments offer. Secondly, this assumes that the only way to implement
activities is through a formal contractual mechanism. We have requested



                                                                                 19
                                                                         Appendix II

significant changes in grant proposals from the implementors prior to awarding
funds and they have generally agreed to implement changes. We meet regularly
with our implementors and provide direction and advice for specific activities.

Specific Comment VI:

-      Program Office- coordinates budget and annual reporting

• With respect to the first risk factor identified in the Draft Report, the description
provided for PCPS's function within USAID/HAITI should also have included the
preparation as well as implementation monitoring of overall Mission planning and
programmatic documents, gas well as implementation monitoring, as evidenced by
both the record and the Scope of Work established for the Office.

• The statement made in the third risk factor should be restricted only to the
monitoring and evaluation functions for which PCPS used to be responsible until
the major downsizing the office experienced in FY 2000. PCPS's Monitoring &
Evaluation Unit was then entirely demobilized and Mission Management decided
that S.O. Teams should coordinate these functions within the activities funded
under their respective portfolios. With the arrival later this summer of a new
Program Officer, the evaluation function will be re-examined. The risk, if any, is
therefore not inherent to either the structure or the performance capability of the
Office.
It also appears that assessment factors # 1 and 2 nullify each other.

Specific Comment VII:

-   Education- provides for teacher education, school supplies, and courses
    delivered by radio.

• In late May 2002, a direct hire education officer visited Haiti on TDY to
acquaint herself with the USAID education program. She met with our partners
and visited field activities. It is now projected that she will be assigned to
USAID/Haiti in January 2003, to become the team leader for SO 4: Increased
Human Capacity.

• In June 2002, the mission received approval to begin obligating the $2.5
million FY 2002 funds allotted to SO 4. Procedures for obligating the funds have
either been fully completed, or are in process. Program activities will be
implemented under 3 cooperative agreements, one with Education Development
Center (EDC), one with FONHEP (a Haitian NGO), and one with Save the
Children. Under their respective cooperative agreements, EDC and FONHEP will
be together responsible for achieving the following objectives:




                                                                                    20
                                                                     Appendix II

1) A functioning structure for utilizing a combination of satellite transmission,
commercial radio, community radio, and/or cassettes and CDs, to transmit
educational messages to in-school and out-of-school audiences;

2) Instructional radio in math and Creole, for 2nd, 3rd, and 4th graders, with the
possibility of extending beyond these subjects and these audiences, to include
other messages and out-of-school youth or adults;

3) An automated monitoring and evaluation system for collecting, collating,
manipulating, and analyzing, data on progress indicators; and

4) A fully developed SO4 framework, including intermediate results, indicators
of progress, and measurement tools to be used.

Save the Children will continue to implement their community school project in
two regions of Haiti, while expanding their radio education and community
mobilization activities.

• US Government (USG) policies regarding relations with the GOH, and the
frequent change of key GOH personnel, has so far prevented USAID education
staff from fully engaging in regular, ongoing discussions with the Ministry of
National Education. A new Minister was installed in March 2002. Over the next
fiscal year, we will engage in regular discussions with Ministry staff with respect
to the USAID education program, provided USG policies permit us to do so.

• To allay any potential GOH concerns that the radio network could be a
propaganda vehicle, we have included in the FONHEP scope of work the
requirement that FONHEP perform a liaison function with the relevant GOH
agencies responsible for telecommunications. The purpose of this function will
be to seek GOH approval for the radio network, and for the specific educational
programming which USAID will be designing with EDC and FONHEP. As part
of this approval process, USAID will have to make explicit the types of
broadcasting that will qualify for education program funds. A Steering Committee
headed by USAID will be responsible for setting limits on what is (and is not)
acceptable for broadcasting.

Specific Comment VIII:

-      Economic Growth- covers micro-finance, agriculture, investment climate,
and environmental activities.

• While true that the Office of Economic Growth has been without a permanent
Team Leader since the premature re-assignment in March 2002 of its USDH
Chief, the office's programs and activities have proceeded well under the
leadership of an experienced USPSC economist who is one of the most senior



                                                                                21
                                                                       Appendix II

staff of the Mission. The expected summer arrival of the new EG office chief,
with long USAID field experience in private sector development, will further
reinforce the strong team already in place. Further, the Mission expects to recruit
an experienced US Department of Commerce Officer to serve as senior Trade and
investment Advisor.

• USAID's economic growth portfolio will not solve "Haiti's difficult economic
climate," nor does it have pretensions to do so. What it does aim to do is to:

(i) directly address the problems of hillside poverty in a defined area by the
implantation of improved agriculture techniques, the development of promising
export (and local) markets for selected products, and through the generation of
sustained income for hillside farmers, to stem the degradation of the environment;

(ii) further strengthen the thriving network of institutions providing credit to the
small and especially the micro-entrepreneurs who are responsible for some 80%
of non-farm employment in Haiti;

(iii) reinforce the capabilities of Haitian handcrafters to generate export sales and
revenues by assisting them in standardization and quality improvements, and
openings to new markets; and

(iv) support civil society/private sector initiatives to define a concerted and
coherent agenda of economic and structural reforms needed for investment and
economic growth, and to interface with the public authorities around said agenda.

The first three aims are discrete, carrying little likelihood of failure due to the
vagaries of the political and economic environment. The fourth, if it is to be
successful in its second component (i.e. dialogue and agreement with public
authorities), does depend on government willingness to be an actor for change, a
factor that is indeed not under the control of USAID.


In closing, USAID/Haiti would like to express its appreciation for the manner in
which the review was conducted and the usefulness of the findings contained
therein.




                                                                                  22
